APPENDIX A - Court of Appeals Opinion

States Court ot appeals
jfor tbe Cigfjtf) Circuit

No. 18-3757
Daniel L. Lopez
Petitioner - Appellant
v.
United States of America
Respondent - Appellee

Appeal from United States District Court
for the Southern District of Iowa - Davenport
Submitted: December 9, 2019
Filed: March 30,2020
[Unpublished]

Before SMITH, Chief Judge, LOKEN and GRASZ, Circuit Judges.

PER CURIAM.
Daniel Lopez pleaded guilty to drug and firearm offenses in 1997 and was
sentenced as a career offender to 360 months in prison. See USSG § 4B1.1. Lopez
appealed and we affirmed. United States v. Lopez, No. 97-2439, 1998 WL 279357
(8th Cir. June 2, 1998). In June 2016, he moved to correct his sentence under 28
U.S.C. § 2255 based on Johnson v. United States, 135 S. Ct. 2551 (2015). Lopez

la

APPENDIX A - Court of Appeals Opinion

appeals the district court’s1 denial of the motion as untimely, an issue we review de
novo. E.J.R.E. v. United States, 453 F.3d 1094, 1097 (8th Cir. 2006).
A § 2255 motion is timely if brought within one year of the date on which the
judgment of conviction becomes final. § 2255(f)( 1). But if the movant asserts a right
“newly recognized by the Supreme Court and made retroactively applicable to cases
on collateral review,” the one-year period runs from “the date on which the right
asserted was initially recognized by the Supreme Court.” § 2255(f)(3).
In Johnson, the Supreme Court invalidated the residual clause of the Armed
Career Criminal Act as unconstitutionally vague. 135 S. Ct. at 2556-57,2563. Lopez
filed his § 2255 motion within one year of Johnson. The Court made Johnson
retroactive to cases on collateral review in Welch v. United States, 136 S. Ct. 1257,
1265,1268 (2016). But in Beckles v. United States, 137 S. Ct. 886,892,895(2017),
the Court held that the parallel residual clause in the career offender provisions of the
advisory guidelines was not unconstitutionally vague. In a concurring opinion,
Justice Sotomayor said it should be considered an open question whether the career
offender residual clause in the mandatory guidelines is susceptible to a vagueness
challenge under Johnson. Id. at 903 n.4 (Sotomayor, J., concurring in the judgment).
Lopez was sentenced before the Sentencing Guidelines were made advisory in United
States v. Booker, 543 U.S. 220,246 (2005). Based on this distinction, he argues that
he is entitled to relief because Johnson effectively invalidated the career offender
provision under which he was sentenced, and therefore his motion to correct his
sentence was timely-filed under § 2255(f)(3).
This argument is foreclosed by our recent decision in Russo v. United States,
902F.3d 880 (8th Cir. 2018L cert, denied, 139 S. Ct. 1297 (2019). In Russo, we held

1 The Honorable Charles R. Wolle, United States District Judge for the Southern
District of Iowa.
-2-

APPENDIX A - Court of Appeals Opinion

that the right Lopez asserts -- “a right under the Due Process Clause to be sentenced
without reference to the residual clause of § 4B 1.2(a)(2) under the mandatory
guidelines”--is “not dictated by Johnson.” I& at 882-83. As Johnson left open and
debatable whether its vagueness analysis applies to the career offender provisions of
the mandatory guidelines, Lopez is not asserting a right newly recognized and made
retroactive by the Supreme Court and therefore cannot benefit from the limitations
period in § 2255(f)(3). We have since affirmed denials of other § 2255 motions as
untimely under Russo. See Peden v. United States, 914 F.3d 1151 (8th Cir. 2019),
Mora-Higuera v. United States, 914 F.3d 1152 (8th Cir. 2019).
Lopez argues that Russo was wrongly decided and urges us to follow contrary
decisions of the Seventh Circuit. See D’Antoni v. United States, 916 F.3d 658 (7th
Cir. 2019); Cross v. United States, 892 F.3d 288 (7th Cir. 2018). Russo expressly
acknowledged the Seventh Circuit’s contrary view and explained why its reasoning
was not persuasive. Russo, 902 F.3d at 883-84. Even if we disagreed with Russo,
we are not free to avoid its clear holding. “It is a cardinal rule in our circuit that one
panel is bound by the decision of a prior panel.” Owsley v. Luebbers, 281 F.3d 687,
690 (8th Cir. 2002), cert, denied, 534 U.S. 1121 (2002). Lopez may of course argue
that Russo was wrongly decided in a petition for rehearing en banc to our court, or
in a petition to the Supreme Court for a writ of certiorari to resolve a conflict in the
circuits. See United States v. London, 937 F.3d 502, 508 (5th Cir. 2019), cert
denied, — S. Ct. — (2020) (collecting cases).
The judgment of the district court is affirmed.

-3-

APPENDIX B - Court of Appeals Order Denying Rehearing
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-3757
Daniel L. Lopez
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the Southern District of Iowa - Davenport
(4:16-cv-00371-CRW)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
Judge Kelly did not participate in the consideration or decision of this matter.
May 11,2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Ar.

Case 4:16-cv-00371-CRW Document 10 Filed 12/07/18 Page lot 5

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION

DANIEL LENE LOPEZ,

No. 4:16-cv-00371-CRW
Crim. No. 4:96-cr-00121-CRW

Movant,
v.
UNITED STATES OF AMERICA,
ORDER
Respondent.

Daniel Lene Lopez filed this Motion to Vacate, Set Aside, or Correct Sentence pursuant
to 28 U.S.C. § 2255, challenging his sentence in United States v. Lopez, 4:96-cr-000121-CRW
(S.D. Iowa) (“Crim. Case”). Lopez asserts he is entitled to relief under Johnson v. United States,
135 S. Ct. 2551 (2015). The issues have been briefed by the parties, and the matter is now ready
for ruling.
I.

STANDARD OF REVIEW
A federal inmate may file a motion under 28 U.S.C. § 2255 for release “upon the ground

that the sentence was imposed in violation of the Constitution or laws of the United States, or
that the court was without jurisdiction to impose such sentence, or that the sentence was in
excess of the maximum authorized by law, or is otherwise subject to collateral attack,... .” 28
U.S.C. § 2255(a).
A movant “is entitled to an evidentiary hearing on a section 2255 motion unless the
motion and the files and records of the case conclusively show that the prisoner is entitled to no
relief.” Voytik v. United States, 778 F.2d 1306, 1308 (8th Cir. 1985) (citing 28 U.S.C. § 2255);
see also Franco v. United States, 762 F.3d 761, 763 (8th Cir. 2014) (“No hearing is required,

Case 4:16-cv-00371-CRW Document 10 Filed 12/07/18 Page 2 of 5

however, where the claim is inadequate on its face or if the record affirmatively refutes the
factual assertions upon which it is based.”) (quoting Anjulo-Lopez v. United States, 541 F.3d
814, 817 (8th Cir. 2008)). Here, the files and records conclusively show Lopez is not entitled to
§ 2255 relief, and no hearing is needed.
II.

PROCEDURAL BACKGROUND
Lopez pleaded guilty to conspiring to distribute methamphetamine, amphetamine, and

marijuana; possessing methamphetamine and amphetamine; and to using and carrying a firearm
during and in relation to a drug-trafficking crime. United States v. Lopez, No. 97-2439, 1998
U.S. App. LEXIS 11678, at *2 (8th Cir. 1998) (per curiam). The Court sentenced Lopez to 360
months in prison, which was based, in part, on his designation as a career offender under USSG
§ 4B1.1. Id.
III.

DISCUSSION OF CLAIM
In United States v. Booker, 543 U.S. 220 (2005), the Supreme Court excised that part of

the Sentencing Guidelines which made the Guidelines mandatory and imposed binding
requirements on all sentences. Id. at 245 (“finding the provision of the federal sentencing statute
that makes the Guidelines mandatory, incompatible with today’s constitutional holding.”).
Lopez was sentenced in 1997, a time when the Sentencing Guidelines were considered
mandatory. As stated above, the Court also found Lopez had been convicted of previous crimes
of violence which triggered the career offender status under USSG § 4B1.1. Lopez, 1998 U.S.
App. LEXIS 11678, at *2. The language in the Sentencing Guidelines used to define a “crime of
violence” was identical to the language used in the Armed Career Criminal Act of 1984 (ACCA)
to define a “violent felony.” Beckles v. United States, 137 S. Ct. 886, 890 (2017).

2

Case 4:16-cv-00371-CRW Document 10 Filed 12/07/18 Page 3 of 5

In Johnson v. United States, 135 S. Ct. 2551 (2015), the Supreme Court held the ACCA
language for “violent felony” was unconstitutionally vague. Id. at 2558 (“By combining
indeterminacy about how to measure the risk posed by a crime with indeterminacy about how
much risk it takes for the crime to qualify as a violent felony, the residual clause produces more
unpredictability and arbitrariness than the Due Process Clause tolerates.”).
The rule recognized in Johnson was made retroactive to cases on collateral review in
Welch v. United States, 136 S. Ct. 1257, 1268 (2016). Even though the language used in the
Guidelines and the language of the ACCA was identical, the Supreme Court held no vagueness
challenge to the Guidelines could be made because of the discretionary nature of the Guidelines
themselves. Beckles, 137 S. Ct. at 892 (holding Guidelines are not subject to vagueness
challenge under Due Process Clause because “they merely guide the exercise of a court’s
discretion in choosing an appropriate sentence within the statutory range.”). Justice Sotomayor
noted in her concurrence in Beckles, that it remains open “whether defendants sentenced to terms
of imprisonment before our decision in [Booker], that is, during the period in which the
Guidelines did ‘fix the permissible range of sentences’ may mount vagueness attacks on their
sentences.” Beckles, 137 S. Ct. at 903, n.4 (Sotomayor, J., concurring) (emphasis original)
(internal citations omitted).
Lopez raises this specific claim in his pending § 2555 motion. The identical issue was
also raised and decided in Russo v. United States, 902 F.3d 880 (8th Cir. 2018), reh’g and reh’g
en banc denied, 2018 U.S. App. LEXIS 32031.
In order to be considered timely, such a claim must have been filed within one year of
“the date on which the right asserted was initially recognized by the Supreme Court, if that right

3

Case 4:16-cv-00371-CRW Document 10 Filed 12/07/18 Page 4 of 5

has been newly recognized by the Supreme Court and made retroactively applicable to cases on
collateral review.” 28 U.S.C. § 2255(f)(3). The Russo Court reasoned Johnson did not explicitly
recognize that its holding applied to the mandatory pre-Booker Guideline, but rather, “[i]t is
reasonably debatable whether Johnson's holding regarding the ACCA extends to the former
mandatory guidelines.” Russo, 902 F.3d at 883. Because the Supreme Court did not specifically
recognize the right asserted by Russo, Russo “cannot benefit from the limitations period in
§ 2255(f)(3).” Id. The Court of Appeals then affirmed the district court’s decision to dismiss
Russo’s § 2255 motion as untimely. Id.
For the reasons given in Russo, the claim raised here by Lopez is untimely.
IV.

CONCLUSION
The § 2255 is denied, and the case is dismissed.2
Pursuant to Rule 11(a) of the Rules Governing Section 2255 Proceedings in the United

States Courts, the Court must issue or deny a Certificate of Appealability when it enters a final
order adverse to the movant. District Courts have the authority to issue certificates of

1 As the § 2255 motion was considered untimely, the Court of Appeals did “not resolve
the merits of Russo’s constitutional claim that a sentence based on a residual clause in the
mandatory guidelines violates the Due Process Clause.” Russo, 902 F.3d at 884. The Supreme
Court also has denied a petition for writ of certiorari on an identical issue. See Brown v. United
States, 139 S. Ct. 14, 586 U.S._(2018) (Sotomayor, J., dissenting from denial of certiorari).
2 The Government also asserts relief to Lopez should be denied because he filed a § 2255
motion on July 9, 2001. Gov’t. Brief 1, ECF No. 8. The Government contends, therefore, this
§ 2255 should be considered a successive petition and barred until Lopez obtains permission
from the Court of Appeals as required by 28 U.S.C. § 2255(h). Id. at 2.
On May 24, 1999, the Court denied Lopez additional time to file a § 2255 motion. The
docket sheet, however, does not reflect that Lopez ever filed a § 2255 motion in this district
court previous to the current motion, either in his criminal case or as a separate civil case. For
this reason, the Court does not address this argument.
4

Case 4:16-cv-00371-CRW Document 10 Filed 12/07/18 Page 5 of 5

appealability under 28 U.S.C. § 2253(c) and Fed. R. App. P. 22(b). A certificate of appealability
may issue only if a movant “has made a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). A substantial showing is a showing “that reasonable jurists
could debate whether (or, for that matter, agree that) the petition should have been resolved in a
different manner or that the issues presented were adequate to deserve encouragement to proceed
further.” Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (internal quotation marks and citations
omitted).
Although the above result is required in this Circuit, reasonable jurists have debated
where the petition should be resolved in a different manner. See Cross v. United States, 892
F.3d 288, 293-94 (7th Cir. 2018) (finding Johnson claim timely as it applies to pre-Booker
sentence because movant not required to “ultimately prove that the right applies to his situation;
he need only claim the benefit of a right that the Supreme Court has recently recognized.”). The
Court finds Lopez has made a substantial showing of the denial of a constitutional right for any
of his claims, and grants a Certificate of Appealability on the issue raised in this case.
IT IS SO ORDERED.
Dated this 7th day of December, 2018.

CHARLES R, WOLLE, JUDGE
U.S, DISTRICT COURT

5

